                                                                           September 27, 2012

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up, Office of Financial
              Management

From:         Hannibal M. Ware
              Eastern Regional Manager

Subject:      Verification Review – Results of Recommendations for September 2007 Flash
              Report, “Environmental, Health and Safety Issues at Rand Mining District, CA,
              Bureau of Land Management, (C-IN-BLM-0012-2007)”
              Report No. VI-VS-BLM-0004-2012

        The Office of Inspector General has completed a verification review of the six
recommendations presented in the subject flash report. Our objective was to determine if the
recommendations made in our report have been implemented as reported to the Office of
Financial Management (PFM), Office of Policy, Management and Budget. We concluded that all
six recommendations are resolved and implemented.

Background

        Our September 2007 Flash Report, “Environmental, Health and Safety Issues at Rand
Mining District, CA, Bureau of Land Management” contained six recommendations made to
propel immediate action to protect the health and safety of the public and Bureau of Land
Management (BLM) employees.

       In an October 12, 2007 memorandum, BLM generally concurred with all six
recommendations, detailing its plans to implement the recommendations as well as actions it had
already taken. On November 1, 2007, we referred the recommendations to PFM for tracking and
implementation.

       PFM subsequently reported that BLM implemented all recommendations. In a
December 22, 2008 memorandum, PFM closed recommendations 1, 3, 5, and 6 and closed the
remaining recommendations in a July 1, 2010 memorandum.

Scope and Methodology

      We limited the scope of this review to determining whether BLM implemented the six
recommendations. To accomplish our objective, we reviewed the supporting documentation
BLM submitted to PFM, reviewed updated documents, and interviewed BLM officials.



                               Office of Inspector General | Herndon, VA
        We did not perform any site visits or conduct fieldwork to determine whether BLM
corrected the hazardous conditions that we initially identified. As a result, this review was not
conducted in accordance with generally accepted Government auditing standards issued by the
Comptroller General of the United States or with the quality standards for inspections of the
Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       BLM has implemented all six recommendations as indicated by their closure.

       Recommendation 1: Implement community relations activities, consistent with the
       Project Management Plan. These activities should include providing written notification
       to all District residents alerting them of the arsenic contamination and conducting
       periodic public education and outreach activities.

       Action Taken: A Community Involvement Plan for the Rand Historic Mining Complex,
       San Bernardino and Kern Counties, California, was prepared on February 28, 2008. The
       Plan described site location and identified community involvement, objectives, and
       activities. BLM also provided copies of news releases and agendas for open house
       meetings from October 16, 2007, to September 30, 2008. The agendas included industry
       experts in arsenic testing who updated residents and held a question and answer period.

       We confirmed the full implementation of this recommendation on September 19, 2012,
       by interviewing BLM officials who confirmed that periodic public education and
       outreach activities continue. We reviewed copies of current news releases noting those
       activities.

       Recommendation 2: Reduce or eliminate existing arsenic exposure to recreational users
       consistent with the Project Management Plan. Actions should include promptly installing
       fencing around the entire tailings pile accessible from Route 110 to restrict access to off
       highway vehicle users and post signs warning of the arsenic contamination.

       Action Taken: On July 30, 2009, BLM officials provided pictures to PFM of the
       installation of fencing around the entire tailings pile as well as pictures of signs posted on
       the fence marked “DANGER Arsenic Poison HAZARD STAY OUT.”

       Recommendation 3: Promptly install fencing around hazardous mine features consistent
       with the Action Memorandum.

       Action Taken: During March 2008, BLM completed the installation of fencing and
       posting of warning signs to restrict public access to contaminated areas. On September
       21, 2012, BLM provided us with pictures showing the fencing and danger signs.

       Recommendation 4: Promptly install air monitoring systems consistent with the Action
       Memorandum and Project Management Plan.



                                                 2
Action Taken: BLM consulted with a private contractor to locate four air monitoring
sites—Background, Yellow Aster, Johannesburg, and Kelly. On January 26, 2010, BLM
purchased air monitoring equipment that BLM installed, calibrated, and protected with
security-grade fencing in February 2010. BLM officials provided PFM with invoices for
air monitoring equipment and pictures illustrating the secured air monitoring systems at
all four sites.

Recommendation 5: Consult with BLM’s health and safety office and/or the
Department’s Office of Occupational Health and Safety, the Office of the Solicitor, and
the Department’s environmental experts to promptly determine and implement the
appropriate testing and monitoring required for privately owned properties located within
the Rand Mining District for use in Remedial Investigation/Feasibility Study process.

Action Taken: Based on documentation provided to PFM, BLM partnered with the U.S.
Geological Survey and Chapman University to execute a soil sampling plan on privately
owned properties adjacent to public lands within the Rand Mining District, resulting in
the report “Red Mountain Lot Sample Sites for Samples Collected during 6/18-
6/20/2007.” They conducted soil sampling on 22 local private properties and determined
that heavy rainstorm run-off from the tailings pond transported mill tailings to adjacent
properties. They also determined that additional sampling of private properties may be
necessary. As of November 7, 2008, BLM conducted cleanup activities at the Rand
Historic Mining Complex under the Comprehensive Environmental Response
Compensation and Liability Act. The memorandum states: “Since the release of the
[Office of Inspector General] report, BLM’s Site Safety and Health Plans . . . were
prepared for soil sampling for BLM employees and contractors working at the site.”

Recommendation 6: Implement medical monitoring and air monitoring of work
activities consistent with the Site Health and Safety Plan.

Action Taken: In fiscal year 2007, BLM renewed its interagency agreement with the
Federal Occupational Health, the Public Health Service, and the U.S. Department of
Health and Human Services to conduct medical monitoring for employees who access the
Rand mining site. On December 26, 2007, BLM provided the Federal Occupational
Health with a list of 15 employees approved to participate in the program. According to a
November 7, 2008 memorandum, 12 of the 15 employees had completed the baseline
physical examination in fiscal year 2008, and surveillance examinations were scheduled
to monitor these 12 employees. The 12 employees were also cleared to utilize respirators
while accessing the site. On May 12, 2008, BLM provided a personal air quality device
for employees at the Ridgecrest Field Office. The three employees that did not complete
baseline medical examinations were restricted from accessing the site until they had been
cleared by a medical examination.

BLM conducted Hazmat training for employees at the Knights of Columbus Hall in
Ridgecrest on December 10, 2007. A copy of the training course sign-in sheet was
attached to the November 7, 2008 memorandum as evidence that the training had taken
place.


                                        3
       BLM officials confirmed on September 19, 2012, that medical monitoring and air
       monitoring of work activities are no longer necessary since air quality samples were
       deemed acceptable through the Remedial Investigation/Feasibility Study. Our review of
       the study confirmed that the monitoring of work activities were no longer necessary.

Conclusion

      We informed BLM officials of the results of this review at an exit conference on
September 26, 2012. BLM officials agreed with the results of our review.


cc:    Michael J. Pool, Acting Director, Bureau of Land Management
       James G. Kenna, State Director, Bureau of Land Management, California State Office
       Carl Symons, Acting Field Manager, Bureau of Land Management, Ridgecrest Field
       Office
       LaVanna Stevenson, Audit Liaison, Bureau of Land Management
       Alexandra Lampros, Audit Liaison Officer, Office of Financial Management
       Peter Graves, AML/Hazmat Program Lead, Bureau of Land Management, California
       State Office




                                               4
